XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-6003
Facsimile: (916) 324-8835
E-Mail: Aimee.Feinberg@doj.ca.gov

January 14, 2020

Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Institute for Free Speech v. Becerra, No. 19-793

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 18,
2019. Petitioner contends that California’s requirement that charities operating
within the State submit, on a confidential basis, a list of their major donors to the
California Attorney General’s Office for regulatory oversight purposes facially
violates the First Amendment. Two petitions presenting similar First Amendment
challenges to California’s donor-reporting requirement are currently pending before
this Court: Americans for Prosperity Foundation v. Becerra, No. 19-251, and
Thomas More Law Center v. Becerra, No. 19-255. In light of the comprehensive
brief in opposition filed in those cases, respondent does not intend to file a separate
opposition in this case unless requested to do so by the Court.
Respectfully submitted,
/s Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

